     Department of Homeland Security




       FEMA Public Assistance Grant Funds Awarded to
       South Florida Water Management District Under
                     Hurricane Jeanne




DA-12-24                                      August 2012

                     a"(4.D ~~
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 J www.oig.dhs.gov


                                                 AUG 2 7 20i2

MEMORANDUM FOR:                        Maior P. (Phil) May
                                       R


FROM:                                       i
                                       Assistant In spector Ge eral
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       South Florida Water Management District Under
                                       Hurricane leanne
                                       FEMA Disaster Number 1561-DR-Fl
                                       Audit Report Number DA-12-24

We audited Public Assistance (PAj grant fund s awarded to the South Florida Water
Management District (District) (FlPS Code OOO-U03Cl-OO). Our audit objective was to
determine whether the District accounted for and expended Federal Emergency
Management Agen cy (FEMA) grant fund s according to F~deral regulations and FEMA
guidelin f!s.

As of November 10, 2011, the District had received a PA award of $3.4 million from the
                                     •
Florida Division of Emergency Management (State), a FEMA grantee, for damages
resulting from Hurricane Jeanne, which occurred in September 2004. The award
provided 100 percent FEMA funding for the first 72 hours of emergen cy protective
measures and debri s removal activities, and 90 percent funding thereafter for these two
activities. The award also provided 90 percent FEMA funding for permanent repairs to
buildings, roads, and flood control facilities. The award included 4 large and 14 small
          1
projects.

We audit ed four large projects with awards totaling $3.3 million (see Exhibit A, Schedule
of Projects Audited). The audit covered the period September 24, 2004, to November 10,
2011, during which the District submitted claims totaling $3.3 million. At the time of our
audit, the District had completed work on all large projects and had submitted final
claims t o the Sta t e for large project expenditure s.




1   Federal r egulations in effect at the time of Hurricane Jeanne set t he large proj ~t threshold at $54, 100.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


We conducted this performance audit between October 2011 and June 2012 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
District, State, and FEMA personnel; reviewed the District’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the District’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the District’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                   RESULTS OF AUDIT

The District did not account for project expenditures on a project-by-project basis as
required by Federal regulations. We also determined that the District was awarded
$1.8 million for repairs to flood control facilities that were ineligible for FEMA
assistance, which should be deobligated and put to better use.

Finding A: Project Accounting

The District did not account for large projects on a project-by-project basis. According
to 44 CFR 13.20(a)(2), the fiscal control and accounting procedures of a state and its
subgrantees must be sufficient to permit the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of the restrictions
and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that large
project expenditures be accounted for on a project-by-project basis.

The District commingled disaster-related receipt and expenditure transactions with
nondisaster transactions in its general account, with no separate accounting establishing
project balances, receipts, or expenditures. As a result, total costs claimed under
individual projects could not be readily identified and traced to supporting
documentation without direct assistance from District officials.




www.oig.dhs.gov                                    2                             DA-12-24
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


District Response. District officials generally disagreed with this finding, saying that they
had purchase orders, invoices, and the like for the costs claimed. They also said that
they now have a system in place to capture grant costs as required by Federal
regulations and FEMA guidelines.

OIG Response. Although the District may have had accounting records for project costs,
it did not establish a separate accounting of costs for each project. As described in the
finding, we could not trace specific project costs to supporting documentation without
direct assistance from District officials.

Finding B: Ineligible Project Funding

The District received $1,814,495 of project funding for emergency and permanent
repairs to flood control facilities (canals and a canal road) that were not eligible for
FEMA funding. The facilities are under the U.S. Army Corps of Engineers’ (Corps)
Rehabilitation Inspection Program (RIP). The Corps requires that the District maintain
the facilities and determines when funding is necessary for repairs to facilities damaged
by floods, hurricanes, or storms. Federal regulations prohibit FEMA funding for facilities
that are covered under this program. Therefore, we question the $1,814,495, as shown
in table 1.

             Table 1. Ineligible Project Funding for Flood Control Facilities
          Project                                                        Amount
          Number                    Work Location                        Awarded
           6373       Emergency Repairs to Canals at S-65A and S-65      $1,022,495
           4109       Permanent Repairs to L-8 Canal Road                   792,000
           Total                                                         $1,814,495

Federal regulation 44 CFR 206.226(a) states that disaster assistance will not be made
available under the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended, when another Federal agency has specific authority to restore facilities
damaged or destroyed by an event that is declared a major disaster. In addition,
FEMA’s PublicfAssistancefGuide (FEMA 322, October 1999, pp. 55–56) states that
federally funded flood control works are not eligible for FEMA funding. Finally, FEMA
Policy 9524.3 (Rehabilitation Assistance for Levees and Other Flood Control Works,
September 1996) prohibits emergency and permanent repairs to flood control facilities
under the RIP.

District officials said that, on the advice of FEMA officials, they sought funding from the
Corps for damages to the flood control facilities after the disaster occurred in
September 2004. According to District officials, the Corps denied the request because
there was no evidence of debris or siltation that decreased the channel’s hydraulic



www.oig.dhs.gov                                     3                               DA-12-24
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


capacity to 75 percent or less of preflood capacity. Further, District officials said that
FEMA advised them to apply for PA funding after being denied funding from the Corps.
However, neither the District nor the Corps could provide us with the denial notifications.

District Response. The District disagreed with the finding, saying that the regulations do
not specifically prohibit FEMA funding.

OIG Response. We disagree with the District. Both FEMA policy and Federal regulations
describe specific costs for activities that are not eligible for FEMA funding. The types of
costs we are questioning pertain to repairs that FEMA policy and guidelines clearly state
are ineligible for FEMA assistance.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

       Recommendation #1: Instruct the State to reemphasize to the District its need
       to account for FEMA project expenditures on a project-by-project basis as
       required by Federal regulations (44 CFR 206.205(b) and 44 CFR 13.20(a)(2))
       (finding A).

       Recommendation #2: Deobligate and put to better use $1,814,495 (Federal
       share $1,633,046) of ineligible project funding awarded under the flood control
       projects (finding B).


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with District, State, and FEMA officials during our
fieldwork. We also provided a draft report in advance to these officials and discussed it
at the exit conference held on June 27, 2012. District officials did not agree with our
findings and recommendations. Their comments, where appropriate, are included in
the body of the report. FEMA and State officials withheld comments pending receipt of
the final report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.


www.oig.dhs.gov                                    4                               DA-12-24
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Felipe Pubillones, Audit Manager; Helen White, Auditor-in-Charge; Angelica Esquerdo,
Program Analyst; and Larry Jones, Auditor.

Please call me with any questions, or your staff may contact David Kimble, Eastern
Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                  5                             DA-12-24
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


                                                                            EXHIBIT A

                            Schedule of Projects Audited 

                     September 24, 2004, to November 10, 2011 

                    South Florida Water Management District, FL 

                         FEMA Disaster Number 1561-DR-FL 



                                     Funds Put
             Project     Amount      to Better        Federal
             Number      Awarded        Use            Share      Finding
              6370      $ 265,087
              6371       1,235,411
              6373       1,022,495   $1,022,495       $920,246      B
              4109         792,000      792,000         712,800     B
                Total   $3,314,993   $1,814,495      $1,633,046




www.oig.dhs.gov                                  6                           DA-12-24
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


                                                                     EXHIBIT B 


                               Report Distribution List 

                    South Florida Water Management District, FL 

                        FEMA Disaster Number 1561-DR-FL 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-022)

Grantee

Executive Director, Florida Division of Emergency Management

State

Deputy Inspector General, Florida Division of Emergency Management

Subgrantee

Finance Bureau Chief, South Florida Water Management District




www.oig.dhs.gov                                7                      DA-12-24
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
